Docket No. S_______
PROOF OF SERVICE
I, Jennifer A. Gibson, the undersigned, hereby declare as follows:
1.

I am over the age of 18 years and am not a party to the action

named in the title of the annexed document. I am citizen of the United
States of America, employed in Sacramento County, California.
2.

My business address is 8698 Elk Grove Blvd. Suite 1-211 Elk

Grove, CA 95624.
3.

On September 14, 2020 I served the within PETITION FOR A

WRIT OF CERTIORARI on the interested parties in said action by
the method checked. For those marked “Served Electronically,” I
transmitted a PDF version of the PETITION FOR A WRIT OF
CERTIORARI by TrueFiling electronic service or by e-mail to the email service address(es) provided below. For those marked “Service by
Mail,” I deposited true copies, enclosed in a sealed envelope with
postage thereon fully prepaid in the United States mail addressed as
follows:
Office of the State Attorney General
P.O. Box 944255
Sacramento, CA 94244-2550
SacAWTTrueFiling@doj.ca.gov
_X_ Served Electronically
_X_ Served by Mail
D.W. [Address on File]
___ Served Electronically
_X_ Served by Mail

Anne Marie Schubert
Sacramento County District Attorney
901 G Street
Sacramento, CA 95814
daoffice@sacda.org
_X_ Served Electronically
_X_ Served by Mail
I declare under penalty of perjury under the laws of the State of
California that the foregoing is true and correct. Executed on
September 14, 2020, in the City of Elk Grove, in Sacramento County,
California.

By:

/s/ Jennifer A. Gibson
JENNIFER A. GIBSON
U.S. SCT BAR NO. 281877
GIBSON APPELLATE LAW
8698 ELK GROVE BLVD
SUITE 1-211
ELK GROVE, CA 95624
Phone: (916) 714-6675
Mobile: (916) 207-5931
Email: Jen.gibson@comcast.net
Counsel for Petitioner D.W., a
Minor

